                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

 Case Number: A10090071                                                                    Page 1 of 1



                  We received an anonymous complaint that an NSF employee 1 (the subject) had been
          abusing NSF's public' transit subsidy program. The program allows federal employees to receive
          a tax-free subsidy, but the funds may only be used by employees for their commute to and from
          work. Our investigation revealed that $2,275.35 in transit subsidy funds had been downloaded
          onto the subject's transit card and none had been used for commuting to NSF's office.
          Additionally, the subject had received a $945.00 transit subsidy reimbursement, which
          constituted American Recovery and Reinvestment Act (ARRA) funds, bringing the total to
          $3,220.35.

                  The subject admitted that she did not use the transit subsidy, but had given it to her
          daughter to use. Because the subject's actions violated 18 U.S.C. § 641, we referred this matter
          to the Department of Justice (DOJ). The subject entered into a Pretrial Diversion Agreement with
          DOJ, which stipulated that the prosecution of her offense would be suspended for one year,
          proyided that she: attends work regularly; pays $3,220.35 in restitution to NSF; performs 50
          hours of community service; and pays $100 for the cost of prosecution.

                 We referred the matter to the subject's supervisor, who issued the subject a letter of
          counseling; the referral and supervisor's response are attached.

                    Accordingly, this case is closed.




·NSF OIG Fonn 2 (11102)
                     n                                           n
                    NATIONAL SCIENCE FOUNDATION
                                 4201 Wilson Boulevard
                                  Arlington, VA 22230 ,

          DIVISION OF ATMOSPHERIC AND GEOSPACE SCIENCES


                                  MEMORANDUM


TO:
FROM:
DATE:         October 7, 2011
RE:           Repmt of Investigations (OIG Case No. A10090071)




and discussed the Report of Investigations issued by the NSF Oftice of Inspector General
        identified as Case No. Al0090071 and involving an employee in our Division.
                                          met with the employee to discuss the report and
the circumstances surrounding the events leading to the OIG investigation.

After .careful review of the facts of the case, as presented by the OIG, and in direct
discussions with the employee, we have concluded that a letter of counseling is
appropriate and will be issued to the employee to underscore the seriousness of their
actions in 'misusing their SmarTrip card in violation of federal law.

In considering a reasonable response to the employee's actions, we considered several
factors:

   (1} The employee withdrew from the transit subsidy program and therefore no longer
       receives benefits under the program;      ·
   (2) The employee admitted and apologized for the misuse of the transit subsidy
       funds;
   (3} The employee entered into a Pretrial Diversion Agreement with the U.S.
       Department of Justice that includes the requirements to attend work regularly, pay
       $3,220.35 in restitution to the NSF for the misuse of the transit subsidy, perform
       50 hours of community service by June 3, 2012, and pay $100 in prosecution fees
       by December 2, 2011; and
   (4) The employee has begun making                                   and on September
       17, 201i began working with the                                     as part of their
       community service.

We considered the above factors to be pos1t1ve indicators that the employee fully
understands the seriousness of .their actions and is equally serious about making amends.
                                            1
                                                                            0                          \
            While the employee may have been the individual who abused the public trust by
            misusing ~heir transit subsidy benefits, we see this incident as an opportunity for the-
            leadership to help recommit the entire staff to the'etbical rigors of work in the public
            sector and to avoid any su~h missteps by ot~er staff.


            cc:    Dr. Cora B. Marrett, NSF Deputy Director .
                   Ms. Allison C. Lerner, NSF          General

                  Ms. Amy Northcutt, Acting Director, NSF OJRM
                  Dt. Clifford J. Gabriel, NSF Office .of the Director's Liaison to OIG
                                                          .   ',
                                                                '




                                                                                     ,;   ...


                                                                             (




                                                      2




 '
~-·~·-·--
                              n


                     National Science Foundation • Office of the Inspector General
                       4201 Wilson Boulevard, Suite ill-705, Arlington, Vit:ginia 22230
                                         .                           .                '




                                             SEP· 1 3 2011

Confidential



        To:


      From:    Peg¥>' L. FischeW( . .          ~A..:
               Assistant Inspector GeHer~'A-cYr in~tigations

  Subject:     Report of Investigation (OIG Case No. Al0090071)


Please note: This report contains confidential personal information and it should be disclos~d
only to individuals who must have knowledge of its contents to facilitate NSF's assessment and
resolution of this matter. Unauthorized disclosure may result in personal criminal liability under
the Privacy Act, 5 U.S. C. § 552a(i)(l).




      We are referring this .matter to you so that appropriate action can be taken by the
Foundation. Please advise me by October 13, 2011 of the actions taken regarding the
recommendations contained in our report.



Attachment

cc:     Cora B. Marrett, Deputy Director
        Allison C.                 General

        Amy Northcutt, Acting Director, OIRM
        Clifford J. Gabriel, Office of the Director's Liaiso~ to OIG
CONFIDENTL'\.L                                                                      CONFIDENTW_.




       National Science ,Foundation
        Office of Inspector General




                        Confidential
                   Report Investigationof
                 .Case Number A10090071
                        September 13, 2011
                 This Confidential Report of Investigation is provided to you
                                  FOR OFFICIAL USE ONLY. ,
 It contains protected person~! information, the unauthorized disclosure of which may r~suit in
 personal criminal liability tinder the J?rivacy Act, 5'U.S.~. § 55:ia This report may he further·
 disclosed \\ithin NSF only to individual~ who must 'have knowledge of its contents to
 facilitate NSF's assessment and resolution of this matter. 1bis report may be disclosed
 outside NSF only linder the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
 552a. Please take appropriate precautions handling this confidential report of investigation.

                                                                              NSF OIG Form 22b (12/lo)
CONFIDEN'riAL                                                                                     CONFIDENTIAL


Background

                                                                                                                 /


                                                Our investigation substantiated the allegation.

        The transit subsidy program allows federal employees to receive a tax~free subsidy, but.
the funds may only be used' by employees for their commute to and from work. 1 A SmarTrip
card is a stored-value Metro card issued by the Washington Metropolitan Area Transit Authority
(WMATA). The SmartBenefits system allows an employee to load money from his or her
employer's transit subsidy program onto the card. WMATA's computer system keeps track of
the ·SmarTrip cardholder;s use of the card, including SmaitBenefits and cash additions~ and
reductions for usc of Metrorail and Metrobuses. ' The WMA TA system also identifies the date
and time for each entrance into an4 exit from a Metrorail station.

Investigation

       NSF/OIG obtained the subject's Integrated Time and Attendance System (ITAS) records
from NSF, Tab 1, and her SmarTrip records from WMATA, Tab 2. Comparing the use of the
subject's SmarTrip card with her start- and stop-work times at NSF; we concluded that she was
not using the card for commuting to and from NSF. In fact, a significant portion of the trips
             in
were not the vicinity of NSF and occurred during' periods in which the subject was signed into
work.

        We'interviewed the subject 011 December 2; 2010. The subject admitted that she did not
use the SmarTrip card, and that she had given it to her daughter to use, Tab 3. 'Ibe subject
declined to provide an affidavit at that interview, but she later provided one she had written,
explaining that she had been under physical, emotional, and financial stress, and that she·.was
sincer~ly sorry for her conduct, Tab 4.           ·

        The subject's actions resulted in the ·misuse of $2,275.35 in funds that had been
downloaded onto her SmarTrip card. These funds were being used by the subject's daughter and
were not used for her personal commuting expenses. Additionally, she had received a $945.00
transit subsidy reimbursement, which constituted American Recovery and Reinvestment Act
(ARRA) funds, Tab 5. In total~ the subject's conduct resulted in the misuse of $3,220.35 in
federal furids.

Action by the De-partment of Justice .

        Because the subject's actions
                               .      violated 18 U.S.C §' 641, we referred this matter to the U.S.
Attorney's Office for the Eastern District of Virginia. On January 11, 2011, the Special
Assistant U.S. Attorney (SAUSA) assigned to the case sent a letter to the subject, informing her
that she may be the potential target of a federal grand jury investigation for her \Viongful actions
involving ~ansit subsidy abuse, Tab 5. The letter also alerted the subject that she could seek to

i   Public Transportation Subsidy Program, Inside NSF, inside.nsfgov/ciirm!das/ssb!ps/ptsp.jsp.

                                                                                                            1



                                                                                                                     /
    CONFIDENTIAL                                                                                 CONFIDENTIAL


    resolve the case through a pre-indictment disposition of the potential charges, which she elected
    to do. The subject subsequently requested to be removed from the transit subsidy program on
    February 17,2011.                                                  ·

         On June 3, 2011, the subject signed a Pretrial Diversion Agreemene, which stipulated
that the prosecutiouof her offen.se would be suspended for one ye?r, provided thatshe abided by
the conditions in the Agreement The Agreement directed that the subject is to attend work
regularly, pay $3,220.35 in restitution to NSF, perform 50 hours of community service·byJune 3,
2012, andpay $100 for the cost of prosecution by December 2, 2011. The first installment ofher
restitution payments was due on July 1, 2011, and the subject paid it. The Agreement also
stipulated that the SAUSA could initiate prosecution if there was evidence that she did not meet
the conditions stipulated in it.

Applicability of the Standards of Ethical Conduct and NSF Policy

           NSF employees are expected to adhere to basic standards of integrity and
           decency. NSF employees must not engage in criminal, dishonest, immoral, or any
           other conduct prejudicial to the Government.

NSF Personnel Manual, § 143. NSF's Manual 15, "Conflicts of Interest and Standards of Ethical
Conduct," states that NSF employees should

           Consiqer public service as a public trust, requiring you to place loyalty to the
           Constitution, the laws, and ethical principles above private gain ....

           You must not use ... your Government position or title for your ownprivate gain;
           ... or for the private gain of. ~ . relatives . . . . ,

Manuall5, §§ 3(1) & 56(a). The subject submitted an application to receive transit benefits that
she did not use, certifYing when she did so that she would use the benefits solely for commuting.
The subject provided the SmartBenefits card, containing the benefits .she received through her
NSF position, to her daughter for her daughter's personal use---:and her daughter added
additional benefits each month ther:eafter. Finally, the subject submitted an application to
receive reimbursement under ARRA for transit.,expenses that .she knew she had not incurred.

        The subject's actions constitute misli;Se of her NSF position for her daughter's and her
own personal gain, in violation of federal criininal law as well as NSF's standards of etlucal
conduct. However, we note as mitigating facts that, when confronted, she acknowledged and
apologized for her misconduct, and subsequently entered into an agreement with the Department
of Justice that includes payment of full restitution and perforinance of significant community
servtce.




2
    The Pretrail Agreement is a confidel).tial document that the SAUSA precluded us from providin~.

                                                                                                           2
                            n                                            ()
CONFIDENTIAL                                                                       CONFIDENTIAL


Recommendation

       The subject's actions were serious. and she has already experienced significant
consequeuces as a result.. We recollliilend that NSF evaluate the subject's conduct, in the context
of NSF's expectations for its employees' conduct and the Department of Justice's actions, and
determine what action, if any; to take.

Subject Response To Our Draft Report

        We provided the subject with a draft copy of this report to review. Her response, Tab 6,
read as follows:

       I would like to state the comment accusing me of submitting an application to
       receive transit benefits I did not intend to use, is NOT true. I defi'nitely did not
       receive the benefits through my NSF position for the sole purpose of providing                   (\

       my daughter the benefits for her personal use.

       This was a rriistake, I was not thinking at the time I allowed my daughter to use
       the SmartTrip card. I would have never jeopardized my position at NSF or any
       other government agency, ifi had been thinking clearly at the time.

       I am being disciplined by the U.S. Attorney's Office for the Eastern District of
       Virginia, I suffered embarrassment, humiliation, stress· and I truly apologize for
       my actions.

       I want it understood that I did not intentionally set out to obtain the benefits for
       my daughter or my own personal gain, the way it reads in the OIG report.

       I request that the sentence on page 2 paragraphs 7 that begins with "Manual 15,
       3(1) & 56(a) read "The subject submitted an application to receive transit benefits
       that she did not solely use."

        We have modified the sentence discussed by the subject to omit the phrase "intend to"
from the original phrase, "application to receive transit benefits that she did not intend to use,"
because the evidence we have relates to what the subject did after receiving the SmarTrip card.
However, the subject's request that the language should be change<;! to state that she "submitted
an application to receive transit benefits that she did not solely use" is untenable: the subject
nevet used the SmarTrip card to commute. While the card was used for 156 trips to or from
Ballston on the Metro, none of the round-trip titi1es coincided with her ITAS sign~in and sign-out
times. Of those 156 Metro trips, 95 were to Ballston in the late afternoon with no return trip that
day-because the subject was already at work at NSF on all of those days, and the subject
admitted that she gave the card to her daughter; it is most likely that her daughter used the card to
visit her in Ballston on those 95 occasions and rode home with her in the subject's car. We
conclude that the subject was well aware that her daughter was extensively using the SmarTrip
card that she gave her, and re-filling it as;fieeded with the subject's subsidy. In addition, the
subject was well aware that she requested reimbursement for commuting costs she did not incur.


                                                                                                   3
